No.

IN THE

SUPREME COURT OF THE UNITED STATES

ANIBAL LUCAS GARCIA,

Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

The petitioner has previously been granted leave to proceed in forma pauperis
in the following courts:

U.S. District Court for the Eastern District of Virginia, Case
No. 3:19-cr-29, by oral order entered April 24, 2019; and

U.S. Court of Appeals for the Fourth Circuit, Case No. 19-
4906, by written order dated December 9, 2019.

Because appellate counsel was appointed pursuant to the Criminal Justice Act
of 1964, 18 U.S.C. ยง 3006A, no affidavit or declaration of the petitioner is attached. See
S. Ct. R. 39.1.
May 17, 2021

Respectfully submitted,

  

Joseph S. Camden
Assistant Federal Public Defender
Counsel of Record

Office of the Federal Public Defender
701 East Broad Street, Suite 3600
Richmond, VA 23219

(804) 343-0800
Joseph_Camden@fd.org
